Case: 20-2840

Document: 18

Filed: 04/08/2021

Pages: 1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted March 25, 2021
Decided April 8, 2021
Before
FRANK H. EASTERBROOK, Circuit Judge
DIANE P. WOOD, Circuit Judge

No. 20-2840
TERRY DIBBLE,
Petitioner-Appellant,
v.
DEANNA BROOKHART,
Respondent-Appellee.

Appeal from the United States District
Court for the Southern District of Illinois.
No. 18-cv-609-SMY
Staci M. Yandle,
Judge.
ORDER

Terry Dibble has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. We have reviewed
the final order of the district court and the record on appeal. We find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED.

1a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 1 of 29 Page ID #1135

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
TERRY DIBBLE, # B81130,
Petitioner,
vs.
DEANNA BROOKHART,
Respondent.

)
)
)
)
)
)
)
)
)

Case No. 18-cv-609-SMY

MEMORANDUM AND ORDER 1
YANDLE, District Judge:
Following a jury trial in St. Clair County, Illinois, Petitioner Terry Dibble was convicted
of the first-degree murder of Billy Barker and was sentenced to 45 years imprisonment. He is now
in the custody of the Illinois Department of Corrections at Lawrence Correctional Center.
Dibble filed this action seeking a writ of habeas corpus pursuant to 28 U.S.C. § 2254. He
raises the following grounds in his Amended Petition (Doc. 14):
1. His conviction violates the Due Process clause of the 14th Amendment because
the jury was instructed on a felony murder theory that was unsupported by the
evidence and returned a general verdict that may have rested on that theory.
2. The prosecution’s use of Christopher Mathis’ prior consistent statements to
rehabilitate his credibility violated due process, and the two attorneys who
represented Dibble at trial were ineffective in failing to object.
3. The state’s closing argument violated due process in that the prosecutor
vouched for the credibility of witnesses Christopher Mathis and Preston
Arnsperger and falsely implied that they had no motive to lie because they had
already been convicted and sentenced, and trial counsel were ineffective in
failing to object to these improper comments.
4. Trial counsel were ineffective in failing to:

1

Citations in this Order are to the document and page numbers assigned by the Case Management/Electronic
Case Filing (“CM/ECF”) system.

1

2a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 2 of 29 Page ID #1136

(a) object to the felony murder charge;
(b) object to the felony murder jury instructions;
(c) argue that the evidence did not support an instruction on felony murder
based on burglary;
(d) object to the prosecution’s closing argument urging a finding of guilt based
on the felony murder theory; and
(e) tender an instruction defining the term “building” as used in the burglary
statute.
5. Trial counsel’s opening statement constituted ineffective assistance in that it:
(a) contradicted Dibble’s exculpatory statements;
(b) suggested that the evidence would show that Dibble drove Mathis and
Arnsperger to Barker’s house but waited in the car while they went in; and
(c) amounted to a concession that Dibble was guilty under accountability
principles.
6. Trial counsel were ineffective in that they stipulated that Mathis and Arnsperger
would not be impeached with the fact that their plea agreements included the
state’s promise not to charge them with the unrelated murder of Nelson
Steinhauer.
7. Trial counsel were ineffective in that they failed to interview Mathis and
Arnsperger before trial and instead apparently assumed that they would testify
in accordance with the statements they had made to the police.
8. Trial counsel were ineffective in failing to properly impeach Arnsperger with
his prior inconsistent statement claiming that he saw Dibble shoot Barker.
9. Trial counsel were ineffective in that they failed to tender jury instructions on:
(a) accomplice-witness testimony; and
(b) the substantive admissibility of certain prior inconsistent statements.
10. The state’s notice of intent to instruct the jury on theories of first-degree murder
that were not charged in the indictment violated due process.
11. The state violated due process by allowing Mathis and Arnsperger to testify to
an incomplete version of their plea deals which omitted that, in return for their
testimony against Dibble, the State would not charge them with the Steinhauer
murder.
2

3a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 3 of 29 Page ID #1137

12. Appellate counsel was ineffective in failing to argue on direct appeal that the
evidence was insufficient to support findings of guilt on the intentional,
knowing, and strong probability theories of murder.
13. Appellate counsel was ineffective in failing to argue on direct appeal that the
evidence was insufficient to find Dibble guilty under an accountability theory.
14. Appellate counsel was ineffective in failing to raise on direct appeal claims of
due process and ineffective assistance of counsel as set forth in Grounds 4(c),
4(d), 4(e) and 10-13.
Respondent filed a Response (Doc. 16) 2 and Dibble filed a Reply (Doc. 28). With leave
of Court, Respondent filed a Sur-Reply (Doc. 32) to which Dibble responded (Doc. 35). For the
following reasons, Dibble’s request for habeas relief is DENIED.
RELEVANT FACTS AND PROCEDURAL HISTORY
State Trial Proceedings 3
Dibble was indicted in 1996 for the first-degree murder of Billy Barker. According to the
Indictment, “on or about the ninth day of November 1993, while committing the forcible felony
of burglary, [Dibble], without lawful justification, shot Billy Barker in the head with a shotgun,
causing the death of Billy Barker.” Before trial, the State filed a notice of intent to submit jury
instructions on multiple alternative theories of first degree murder as set forth in the thenapplicable version of 720 ILCS § 5/9-1(a)(1) through (a)(3) (intentional, knowing, and strong
probability of death or great bodily harm, and felony murder). (Doc. 17-1, pp.1, 3).
Dibble’s conviction “rested primarily on the testimony of [Preston] Arnsperger and
[Christopher] Mathis” who testified that Dibble drove them to Barker’s home in Cahokia, Illinois,

2

Relevant portions of the state court record are attached to Doc. 17.
This summary of the facts is derived from the detailed description by the Illinois Appellate Court, Fifth
District, in its Rule 23 Orders affirming Dibble’s conviction on direct appeal and the dismissal of his
postconviction petition. People v. Dibble, No. 5-99-0131 (November 7, 2000); People v. Dibble, No. 5-140228 (November 4, 2016); (Docs. 17-1 and 17-25). The state court’s factual findings are presumed to be
correct unless rebutted by clear and convincing evidence, which Dibble has not done. 28 U.S.C. § 2254(e).
3

3

4a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 4 of 29 Page ID #1138

for the purpose of stealing drugs. Arnsperger and Mathis did not know Barker, but Dibble knew
him and knew that marijuana and cocaine would be in the house. Dibble told Arnsperger and
Mathis that Barker would not be home because he always spent his evenings in a tavern. Dibble
brought along a shotgun and the three entered the house through a window. Arnsperger and Mathis
went into a bedroom to look for drugs and Dibble went into a different part of the house.
Arnsperger and Mathis heard a male voice that was not Dibble’s say words to the effect of “Freeze,
I’ve got a .45.” They then heard Dibble say “similar words” and heard an immediate shotgun blast.
Arnsperger and Mathis left the house through the same window and Dibble came out of the house
shortly thereafter. Barker was found dead the next day, having been shot in the eye with a shotgun.
Marijuana and money were found in plain view and nothing had apparently been taken from the
house. Dibble did not testify or present any evidence at trial. (Doc. 17-1, p. 2-3).
Arnsperger and Mathis agreed to plead guilty to felony murder and to testify against Dibble
in return for the State’s agreement not to seek sentences in excess of 60 years against them. The
State also agreed not to charge them with respect to the disappearance and death of Nelson
Steinhauer, which occurred on the same night as the Barker murder. (Doc 17-25, p. 3).
The jury was instructed on intentional, knowing, strong probability, and felony murder.
Regarding the felony murder theory, the jury was instructed that a person commits burglary when
he enters a building without authority with the intent to commit a theft therein. The jury was not
instructed that “building” as defined by the burglary statute did not include a “dwelling place.” 4
Dibble did not object to the instructions. The jury returned a general verdict finding Dibble guilty
of first-degree murder without specifying under which theory it convicted him. (Doc. 17-1, pp. 3-

4

The offense of residential burglary covers burglary of a “dwelling place,” and simple burglary does not –
the two offenses are mutually exclusive. (Doc. 17-1, pp. 3-4).

4

5a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 5 of 29 Page ID #1139

4). 5
Direct Appeal
Dibble raised the following points on appeal that are relevant to the instant action:
1. He was denied a fair trial because the jury was instructed on felony murder
based on burglary, but Barker’s death took place in his home and residential
burglary could not support a charge of felony murder.
2. He was denied a fair trial by the prosecution’s use of Christopher Mathis’
prior consistent statements to rehabilitate his credibility.
3. He was denied a fair trial by the state’s closing argument regarding the
credibility of witnesses Christopher Mathis and Preston Arnsperger.
4. Trial counsel were ineffective in thirteen respects, including failing to
object to the felony murder charge and instructions, allegedly conceding
petitioner’s guilt under accountability principles in opening statement,
failing to impeach Mathis and Arnsperger with the State’s promise not to
charge them in the Steinhauer case, failing to perfect impeachment of
Arnsperger by proving up certain prior inconsistent statements, failing to
object to the prosecution’s allegedly improper closing argument comments,
and failing to request a jury instruction on accomplice-witness testimony.
(Doc. 17-11). His conviction was affirmed and Dibble filed a Petition for Leave to Appeal (PLA)
raising the first point and eight of the thirteen allegations of ineffective assistance. (Doc. 17-14).
The Illinois Supreme Court denied the PLA in January 2001. (Doc. 17-15).
First Postconviction Petition
Dibble’s first postconviction petition was dismissed at the first stage, but the appellate court
reversed the ruling. (Doc. 17-16). Counsel was then appointed for Dibble, who ultimately filed a
Fourth Amended Petition which incorporated a pro se petition previously filed by Dibble. (Doc.
17-20). On appeal from the dismissal of that petition, through different counsel, Dibble raised the
following points:

5

Other facts will be discussed as necessary in the analysis below.

5

6a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 6 of 29 Page ID #1140

1. The postconviction petition court improperly weighed facts and disregarded
well-pleaded facts regarding affidavits from two jail inmates which Dibble
asserted established that Arnsperger and Mathis admitted setting Dibble up to
take the blame for the Barker murder.
2. Postconviction counsel had been ineffective.
(Doc. 17-21). The appellate court affirmed the dismissal in November 2016. (Doc. 17-25).
Dibble’s pro se PLA raised claims that had not been included in his counsel’s appellate brief and
the Illinois Supreme Court denied the PLA in March 2017. (Docs. 17-26 and 17-27).
LAW APPLICABLE TO SECTION 2254 PETITION
This habeas petition is subject to the provisions of the Antiterrorism and Effective Death
Penalty Act of 1996, 28 U.S.C. § 2254, which “…modified a federal habeas court’s role in
reviewing state prisoner applications in order to prevent federal habeas ‘retrials’ and to ensure that
state-court convictions are given effect to the extent possible under law.” Bell v. Cone, 535 U.S.
685, 693 (2002). Federal habeas review serves as “a guard against extreme malfunctions in the
state criminal justice systems, not a substitute for ordinary error correction through appeal.”
Harrington v. Richter, 562 U.S. 86, 102-03 (2011) (quoting Jackson v. Virginia, 443 U.S. 307,
332, n.5 (1979) (Stevens, J., concurring)). Habeas relief is restricted to cases where the state court
determination “resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established federal law, as determined by the Supreme Court of the United States” or
“a decision that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. § 2254(d).
A judgment is “contrary to” Supreme Court precedent if the state court “contradicts the
governing law set forth in [Supreme Court] cases.” Coleman v. Hardy, 690 F.3d 811, 814 (7th
Cir. 2012) (quoting Williams v. Taylor, 529 U.S. 362, 405 (2000)). A state court decision is an
“unreasonable application” of clearly established federal law if the state court “identifies the
6

7a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 7 of 29 Page ID #1141

correct governing legal rule from [Supreme Court] cases but unreasonably applies it to the facts of
the particular state prisoner’s case.” Coleman, 690 F.3d at 814 (quoting Williams, 529 U.S. at
407).
Even an incorrect or erroneous application of the federal precedent will not justify habeas
relief; rather, “[a]s a condition for obtaining habeas corpus from a federal court, a state prisoner
must show that the state court’s ruling on the claim being presented in federal court was so lacking
in justification that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Harrington, 562 U.S. at 103. “A state court’s
decision is reasonable…so long as ‘fairminded jurists could disagree’ on the correctness of the
state court’s decision.’” McDaniel v. Polley, 847 F.3d 887, 893 (7th Cir. 2017) (internal citations
omitted). For habeas relief to be granted, the state court’s application of federal precedent must
have been “objectively unreasonable,” meaning “something like lying well outside the boundaries
of permissible differences of opinion.” Jackson v. Frank, 348 F.3d 658, 662 (7th Cir. 2003)
(internal citations omitted).
A habeas petitioner must clear two procedural hurdles before the Court may reach the
merits of his habeas corpus petition: exhaustion of remedies and procedural default. Bolton v.
Akpore, 730 F.3d 685, 694-696 (7th Cir. 2013). Before seeking habeas relief, a petitioner is
required to bring his claim(s) through “one complete round of the State’s established appellate
review process” because “the exhaustion doctrine is designed to give the state courts a full and fair
opportunity to resolve federal constitutional claims before those claims are presented to the federal
courts.” O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999); see also 28 U.S.C. § 2254(c). Under
the Illinois two-tiered appeals process, habeas petitioners must fully present their claims not only
to an intermediate appellate court, but also to the Illinois Supreme Court, which offers

7

8a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 8 of 29 Page ID #1142

discretionary review in cases such as this one. Id. Failure to do so results in procedural default.
ANALYSIS
Claim 1 – Felony Murder and Burglary
Dibble first claims that the State charged him with a crime that did not exist – felony murder
based on simple burglary of a dwelling place. That is not correct. He was charged with firstdegree murder. Felony murder based on burglary was one of the theories of first-degree murder
the State pursued, but neither the charging document nor the jury instructions mentioned a dwelling
place.
Dibble also claims the State proceeded to trial solely on a theory of felony murder. (Doc
14, p. 1; Doc. 28, p. 16). That is also incorrect. During her opening statement, the prosecutor did
state that the evidence would show Dibble was guilty of felony murder based on burglary, but she
also stated that the evidence would show that Dibble shot Barker. (Doc. 17-2, p. 9). The jury was
instructed on alternative theories of first-degree murder (intentional, knowing, and strong
probability of death or great bodily harm) in addition to felony murder. (Doc. 17-1, pp.1, 3).
During closing argument, the prosecutor argued that the evidence established that Dibble was
guilty under any of those theories because he was the one who had the gun and who shot Barker.
(Doc. 17- 10, pp. 10, 19).
The Illinois first degree murder statute, 720 ILCS § 5/9-1(a) defines “only a single offense
of murder, which may be committed in a variety of ways” and the indictment need not specify the
way in which the defendant is alleged to have committed the crime. People v. Maxwell, 592 N.E.2d
960, 970 (Ill. 1992). The jury may be instructed on a theory of the crime that was not alleged in
the indictment as long as the defendant receives prior notice of the state’s intention to do so and
has an opportunity to defend against that theory. Maxwell, 592 N.E.2d at 971.

8

9a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 9 of 29 Page ID #1143

Felony murder is one of the ways that first degree murder can be committed. Under § 5/91(a)(3), felony murder includes causing a death while committing a “forcible felony.” At the time
of Dibble’s offense, the definition of forcible felony included burglary but not residential
burglary. 6 And, under the statutes then in effect, burglary and residential burglary were separate
and mutually exclusive offenses. People v. Childress, 633 N.E.2d 635, 647 (Ill. 1994). Thus, a
defendant could commit felony murder in the course of a burglary, but not residential burglary. It
is apparent from the trial transcript that no one involved in Dibble’s trial – defense counsel, the
prosecutors, or the trial judge – was aware of this.
Dibble’s jury was instructed that it could find him guilty of first-degree murder on a theory
of felony murder based on burglary. But because the evidence also supported a finding that he
committed residential burglary and not the separate crime of burglary, he argues that his due
process rights were violated. Respondent argues that the appellate court rejected the claim on the
independent and adequate state ground of waiver, and that the court’s alternative finding of no
error was a reasonable application of clearly established Supreme Court precedent.
After analyzing Dibble’s argument and concluding that no error had been committed, the
appellate court observed that he had not objected to the jury instructions, argued that the felony
murder instruction was not supported by the evidence, objected to the state’s closing argument that
he was guilty of felony murder based on burglary, or tendered an instruction defining “building”
that would have excluded a residence. Consequently, the court concluded that Dibble had waived
the issue. (Doc. 17-1, p. 7). “When a state court resolves a federal claim by relying on a state law
ground that is both independent of the federal question and adequate to support the judgment,
federal habeas review of the claim is foreclosed.” Richardson v. Lemke, 745 F.3d 258, 268 (7th

6

The definition of forcible felony, 720 ILCS § 5/2–8, was amended effective January 1, 1994 to include
residential burglary. 1993 Ill. Legis. Serv. P.A. 88-277 (H.B. 1453) (West).

9

10a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 10 of 29 Page ID #1144

Cir. 2014) (quoting Kaczmarek v. Rednour, 627 F.3d 586, 591 (7th Cir. 2010)). The Illinois waiver
rule relied upon by the appellate court is the type of state law ground that forecloses habeas review
of a claim. See Smith v. McKee, 598 F.3d 374, 386 (7th Cir. 2010); Richardson, 745 F.3d at 27172.
Dibble argues that consideration of his claim is not barred because the state court did not
rely on the waiver rule but considered the merits of his federal constitutional claim. He cites
Coleman v. Thompson, 501 U.S. 722, 729 (1991), for the proposition that “[i]t is not enough for a
state court to refer to a procedural bar as one of many reasons why the claim cannot prevail.” (Doc.
28, p. 10). But that is an oversimplification of the ruling in that case. The Illinois Supreme Court
also observed:
After Harris, federal courts on habeas corpus review of state prisoner claims, like
this Court on direct review of state court judgments, will presume that there is no
independent and adequate state ground for a state court decision when the decision
“fairly appears to rest primarily on federal law, or to be interwoven with the federal
law, and when the adequacy and independence of any possible state law ground is
not clear from the face of the opinion.” [Michigan v.] Long, supra, 463 U.S. [1032],
at 1040-1041, 103 S. Ct., at 3476-3477 [(1983)]. In habeas, if the decision of the
last state court to which the petitioner presented his federal claims fairly appeared
to rest primarily on resolution of those claims, or to be interwoven with those
claims, and did not clearly and expressly rely on an independent and adequate state
ground, a federal court may address the petition.
Coleman, 501 U.S. at 735.
In Dibble’s case, the appellate court expressly relied on the waiver rule when it concluded,
“[a]ccordingly, finding that no substantial rights of defendant were affected by the alleged error
and that the evidence is not closely balanced, we find it to be waived.” (Doc. 17-1, p. 7). It is not
necessary for the court to have specifically stated that it relied solely on the state ground, and the
Seventh Circuit has rejected the argument that “the presence of any discussion of the merits
indicates that the state court did not base its ruling on independent state law grounds.” Smith v.

10

11a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 11 of 29 Page ID #1145

McKee, 598 F.3d 374, 386 (7th Cir. 2010) (finding, “[o]nly when the state court’s analysis of state
law and federal law grounds are interwoven, to such an extent that we cannot clearly determine
whether the state court opinion relies on state law grounds, do we set aside the state law grounds
and address the issue.”).
The appellate court’s analysis of state and federal law grounds were not interwoven. It is
true that the court concluded that Dibble’s substantial rights were not affected by the alleged error
and that the evidence was not closely balanced, but that was in the context of its review for plain
error. See People v. Thompson, 939 N.E.2d 403, 413 (Ill. 2010). Limited review by the state court
for plain error is not a decision on the merits that allows a federal court to consider the claim on
habeas review. Carter v. Douma, 796 F.3d 726, 734 (7th Cir. 2015). The appellate court relied
solely on the Illinois waiver rule in denying Dibble’s direct appeal, and as a result, habeas review
of the issue is precluded.
In any event, Dibble’s claim would also fail on the merits because the appellate court’s
analysis as to whether there was error was correct under clearly established federal law at the time
of its decision. See Cullen v. Pinholster, 563 U.S. 170, 182 (2011) (internal quotation marks and
citation omitted). In 2000, when Dibble’s direct appeal was decided, the Supreme Court’s most
recent relevant decision was Griffin v. United States, 502 U.S. 46 (1991), in which it reaffirmed
that “a general jury verdict was valid so long as it was legally supportable on one of the submitted
grounds – even though that gave no assurance that a valid ground, rather than an invalid one, was
actually the basis for the jury’s action.” Griffin, 502 U.S. at 49. This is known as the “one good
count rule.” The court noted that in Stromberg v. California, 283 U.S. 359 (1931), it had
previously held that the one good count rule did not apply where one of the submitted grounds was
unconstitutional. Griffin, 502 U.S. at 53. It also acknowledged that in Yates v. United States, 354

11

12a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 12 of 29 Page ID #1146

U.S. 298 (1957), it had found that the one good count rule did not apply where one of the submitted
grounds was legally insufficient. Griffin, 502 U.S. at 51. The court, however, cast doubt on the
idea that Yates was decided as a matter of constitutional law:
Yates, however, was the first and only case of ours to apply Stromberg to a general
verdict in which one of the possible bases of conviction did not violate any
provision of the Constitution but was simply legally inadequate (because of a
statutory time bar). As we have described, that was an unexplained extension,
explicitly invoking neither the Due Process Clause (which is an unlikely basis) nor
our supervisory powers over the procedures employed in a federal prosecution.
Griffin, 502 U.S. at 55-56.
Ultimately, the Supreme Court declined to expand Stromberg and Yates to a situation
where one ground was not unconstitutional or legally insufficient, but merely unsupported by the
evidence, noting that such an extension would be “unprecedented and extreme” and would conflict
with Turner v. United States, 396 U.S. 398 (1970). Griffin, 502 U.S. at 56. As the appellate court
correctly observed, the Supreme Court declined “to set aside a general verdict not because one of
the possible bases of conviction was unconstitutional but because one of the possible bases of
conviction was merely unsupported by sufficient evidence.” (Doc. 17-1, p. 6).
While Dibble concedes that a felony murder conviction based upon burglary is not
unconstitutional (Doc. 28, p. 11), relying on Czech v. Melvin, 904 F.3d 570 (7th Cir. 2018), he
argues that later Supreme Court cases, Hedgpeth v. Pulido, 555 U.S. 57 (2008), and Skilling v.
United States, 561 U.S. 358 (2010), “although decided after petitioner’s appeal, may be relied
upon to determine Yates’s constitutional origins at the time of the state appellate court’s decision.”
(Doc. 28, p.14). But those cases are not helpful to Dibble because they involve general verdicts
where one of the theories of conviction was legally insufficient. 7 By contrast, the theory of felony

7

In Hedgpeth, the jury was instructed on multiple theories of first degree murder, but the felony murder
theory was legally invalid under state (California) law because it permitted the jury to find him guilty of
felony murder if he formed the intent to aid and abet the underlying felony only after the murder. Hedgpeth,

12

13a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 13 of 29 Page ID #1147

murder based on burglary was not legally invalid in his case; it was simply unsupported by the
evidence and the appellate court recognized this distinction. (Doc. 17-1, p. 4). Therefore, Dibble’s
first claim fails.
Claim 2 – The Prosecution’s Use of Mathis’ Prior Statements
Dibble argues that the prosecution’s use of Christopher Mathis’ prior consistent statements
to rehabilitate his credibility violated due process, and that the attorneys who represented him at
trial were ineffective in failing to object. He tacitly agrees that this claim is procedurally defaulted
because neither aspect of the claim was raised in his PLA on direct appeal (Doc. 28, p. 15), but he
argues that his procedural default should be excused because he is actually innocent of felony
murder based on burglary.
A “credible showing of actual innocence” may serve to excuse procedural default and
permit a federal habeas court to review a defaulted constitutional claim. McQuiggin v. Perkins,
569 U.S. 383, 392 (2013). Such a showing “requires petitioner to support his allegations of
constitutional error with new reliable evidence—whether it be exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical physical evidence—that was not presented at trial.”
Schlup v. Delo, 513 U.S. 298, 324 (1995). Habeas review of defaulted claims may occur only in
the “extraordinary case” where the petitioner has demonstrated that “more likely than not, in light
of the new evidence…any reasonable juror would have reasonable doubt.” House v. Bell, 547
U.S. 518, 538 (2006).
Dibble’s contention that he is innocent of felony murder based on burglary, that the State

555 U.S. at 59. Similarly, in Czech, the jury was instructed on four theories of first-degree murder. One
of those theories was felony murder based on the underling felony of aggravated discharge of a firearm.
That theory was legally invalid under state (Illinois) law. Czech, 904 F.3d at 572. And in Skilling, the jury
was instructed on three objects of the charged conspiracy, but one of them, honest services fraud, was
legally invalid because it was not criminalized by the relevant federal statute. Skilling, 561 U.S. at 409.

13

14a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 14 of 29 Page ID #1148

proceeded to trial only on the felony murder theory, and that it is therefore more likely than not
that the jury convicted him on that theory is unsupportable on the record. He was convicted of
first-degree murder, not felony murder. The jury was instructed on other theories of first-degree
murder besides felony murder. The State presented evidence that Dibble shot Barker and argued
that he was guilty of first-degree murder under each of the theories. Thus, Dibble has not shown
that he is actually innocent of first-degree murder, and his procedurally defaulted claims cannot be
considered.
Claim 3 – Vouching for the Witnesses’ Credibility
Dibble claims the State’s closing argument violated due process because the prosecutor
vouched for the credibility of Christopher Mathis and Preston Arnsperger and falsely implied that
they had no motive to lie. He also argues that his trial counsel were ineffective in failing to object.
Dibble concedes that his due process claim is procedurally defaulted. (Doc. 28, p. 17). 8 Therefore,
the Court will not address that aspect of his claim.
The appellate court considered Dibble’s claims of ineffective assistance of trial counsel on
direct appeal and noted that Counsel “did make mistakes” (but did not specifically identify what
those mistakes were). It found that “many of the claimed mistakes by Counsel were strategic
decisions over which Counsel has ultimate authority” and concluded that all claims of ineffective
assistance failed because Dibble did not demonstrate prejudice as required to satisfy the Strickland
standard. (Doc. 17-1, pp. 8-9).
On habeas review, a claim of ineffective assistance of counsel must be analyzed under
Strickland v. Washington, 466 U.S. 668 (1984). See Harrington v. Richter, 562 U.S. 86, 105

8

For the reasons previously explained, Dibble’s procedural default is not excused by a credible claim of
actual innocence. This is true for all instances of procedural default noted herein.

14

15a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 15 of 29 Page ID #1149

(2011). To establish ineffective assistance of counsel, a petitioner must demonstrate (1) that
counsel’s performance “fell below an objective standard of reasonableness” (“the performance
prong”), and (2) “that the deficient performance prejudiced the defense” (“the prejudice prong”).
Strickland, 466 U.S. at 687-88. With respect to the performance prong, “Strickland does not
guarantee perfect representation, only a ‘reasonably competent attorney.’” Id. In order to avoid
the temptation to second-guess counsel’s assistance, there is a strong presumption of adequate
assistance and the exercise of reasonable professional judgment. Id. at 107-08. Thus, a petitioner’s
right to effective assistance of counsel is violated only when counsel’s conduct, in light of all the
circumstances, “[was] outside the wide range of professionally competent assistance.” Strickland,
466 U.S. at 690.
To satisfy the second prong, a petitioner must demonstrate “a reasonable probability that,
but for counsel’s unprofessional errors, the result of the proceeding would have been different. A
reasonable probability is a probability sufficient to undermine confidence in the outcome.”
Strickland, 466 U.S. at 694. “The likelihood of a different result must be substantial, not just
conceivable.” Harrington, 562 U.S. at 112. If the state court’s reasons are not explained, a habeas
petitioner must show “there was no reasonable basis for the state court to deny relief.” Id. at 98.
And, where the federal issue was presented to the state court, an unexplained decision denying
relief is presumed to have been adjudicated on the merits in the absence of an indication to the
contrary. Id. at 99. Even if the state court addressed only one prong of the Strickland analysis,
the federal habeas court may review the unaddressed prong de novo. Rompilla v. Beard, 545 U.S.
374, 390 (2005).
Here, the question is not whether this Court believes that Dibble’s trial attorneys were
ineffective, but rather, whether the appellate court’s application of the Strickland standard was

15

16a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 16 of 29 Page ID #1150

unreasonable. “The bar for establishing the unreasonableness of a state court’s application of
Strickland ‘is a high one, and only a clear error in applying Strickland will support a writ of habeas
corpus.’” Jones v. Brown, 756 F.3d 1000, 1007 (7th Cir. 2014) (citing Allen v. Chandler, 555 F.3d
596, 600 (7th Cir. 2009)).
While a prosecutor is allowed to comment on a witness’s credibility based on the evidence
and reasonable inferences rather than personal opinion, improper vouching occurs if she
“express[es] her personal belief in the truthfulness of a witness” or “impl[ies] that facts not before
the jury lend a witness credibility.” United States v. Klemis, 859 F.3d 436, 443 (7th Cir. 2017)
(internal quotation marks omitted). During her closing argument, the prosecutor made the
statement, “These people are not liars” (Doc. 17-10, p. 19) but did not improperly vouch for
Mathis’ or Arnsperger’s credibility. She was responding directly to defense counsel’s argument
that Arnsperger and Mathis lied to place the blame on Dibble, and her argument that they were not
liars was based on the evidence and reasonable inferences, including the witnesses’ lack of
motivation to lie because they had already pled guilty and been sentenced.
Dibble claims the prosecutor’s argument was also misleading because Mathis and
Arnsperger’s plea deals were “contingent on their testimony.” (Doc. 28, p. 17). That is a
mischaracterization. While their plea agreements required them to testify at Dibble’s trial, nothing
in the record suggests that the agreements motivated them to testify falsely. In fact, Arnsperger
specifically testified that he had agreed “to cooperate with . . . law enforcement officials for
interviews and testify for the State against Terry Dibble” and that no one had told him “to tell
anything other than the truth” when testifying. (Doc. 17-6, pp. 3, 6).
Lastly, Dibble asserts without elaboration that the prosecutor’s argument, that the
witnesses were “not trying to keep away from responsibility” because they had pleaded guilty and

16

17a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 17 of 29 Page ID #1151

received long prison sentences, constituted both vouching and a misrepresentation of the plea
agreements. (Doc. 28, p. 18). For the reasons explained above, it was neither.
In sum, the objection Dibble argues for would have been without merit, and Counsel were
not ineffective for failing to make it. See Washington v. Boughton, 884 F.3d 692, 701 (7th Cir.
2018).
Claim 4 – Ineffective Assistance - Felony Murder Charge
Dibble claims that trial counsel were ineffective in failing to: (a) object to the felony murder
charge; (b) object to the felony murder jury instructions; (c) argue that the evidence did not support
an instruction on felony murder based on burglary; (d) object to the prosecution’s closing argument
urging a finding of guilt based on the felony murder theory; and (e) tender an instruction defining
the term “building” as used in the burglary statute. Again, the grounds advanced in subparts (c),
(d), and (e) are procedurally defaulted. (Doc. 28, pp. 19-20).
As to subpart (a), it is unclear what Dibble means by “failing to object to the felony murder
charge.” Felony murder based on burglary was a valid theory under Illinois law. The fact that it
was not supported by the evidence was not a basis for objection or a motion to dismiss. People v.
Soliday, 729 N.E.2d 527, 529 (Ill. App. 2000) (Illinois law does not authorize dismissal of
indictment on ground that evidence is insufficient to prove the offense charged). Nevertheless,
Dibble asserts that “counsel could have easily alerted the trial court and the State through a motion
that a felony murder charge could not be based on a residential burglary.” (Doc. 28, p. 19). But
that would not have prevented the state from proceeding on the other theories.
As to subpart (b), Dibble does not specify what objection counsel should have made. He
does not contend that the instructions were an incorrect statement of law, and the instructions given
did not tell the jury that residential burglary could support the felony murder theory; they referred

17

18a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 18 of 29 Page ID #1152

only to burglary. (Doc. 17-10, pp. 20-21). Because the instructions were not an incorrect statement
of law, the appellate court could have reasonably concluded that counsel were not ineffective for
failing to object. Dibble’s claim that counsel should have tendered an instruction defining the term
“building” was procedurally defaulted. Accordingly, the court’s conclusion that Dibble did not
meet the prejudice prong of the Strickland test was not unreasonable.
Claim 5 – Ineffective Assistance in Opening Statement
Dibble argues that his counsel’s opening statement constituted ineffective assistance in that
it: (a) contradicted Dibble’s exculpatory statements; (b) suggested that the evidence would show
that Dibble drove Mathis and Arnsperger to Barker’s house but waited in the car while they went
in; and (c) amounted to a concession that Dibble was guilty under accountability principles.
Subparts (a) and (b) are procedurally defaulted because they were not raised for one full round of
state court review. (Doc. 28, p. 20). 9
The claim advanced in subpart (c) is simply incorrect. “A person is legally accountable
for the conduct of another when . . . either before or during the commission of an offense, and with
the intent to promote or facilitate that commission, he or she solicits, aids, abets, agrees, or attempts
to aid that other person in the planning or commission of the offense.” 720 ILCS § 5/5-2(c).
During his opening statement, Counsel stated that Dibble drove Arnsperger and Mathis to Barker’s
house to buy drugs or to find out from Barker where they could buy drugs. He stated that Dibble
knew that Mathis’ shotgun was his “constant companion,” but did not say that Dibble knew Mathis
had the shotgun with him that night or knew that Mathis carried the shotgun up to Barker’s house.
He also stated that Dibble stayed in the car while the other two went into the house and had no

9

Dibble refers to another claim of ineffective assistance, that is, that counsel promised evidence in the
opening statement that he failed to present. (Doc. 28, p. 21). However, that claim was not included in the
PLA on direct appeal and is also defaulted. (See Doc. 17-14, pp. 14-15).

18

19a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 19 of 29 Page ID #1153

reason to believe that a crime was going to be committed. (Doc. 17-2, p. 10). This is not an
admission of guilt under accountability principles. The State did refer to accountability principles
in closing argument but did not argue that defense counsel’s opening statement admitted guilt
under accountability principles. (Doc. 17-10, p. 7). Rather, the State’s theory was that it was
Dibble who planned to steal Barker’s drugs and who shot him, not that Dibble was accountable
for the actions of Arnsperger and Mathis.
Dibble also complains that Counsel’s concession that he was present at Barker’s house
contradicted his statement to the police that he was with his sister that night. 10 Tellingly, Dibble
has never claimed that his attorneys were ineffective in failing to investigate an alibi defense,
failing to present an alibi defense, or failing to call his sister or girlfriend to testify about his
whereabouts that night. Given the anticipated evidence from Mathis and Arnsperger, and the fact
that Dibble was the only one of the three who knew Barker, the appellate court could reasonably
have concluded that counsel made a permissible strategic decision to admit Dibble’s presence
rather than to pursue a weak alibi defense. See Frentz v. Brown, 876 F.3d 285, 293 (7th Cir. 2017)
(Counsel’s decision not to present a defense that was unsupported by evidence “was within the
wide spectrum of permissible strategic decision-making.”). In light of the apparent weakness of
Dibble’s alibi, the court reasonably concluded that he did not demonstrate prejudice.
Claim 6 – Ineffective Assistance – Agreement Regarding the Steinhauer Case
Dibble argues that Counsel were ineffective in stipulating that they would not crossexamine Mathis and Arnsperger about the fact that, pursuant to their plea agreements, the State
agreed not to charge them with the murder of Nelson Steinhauer. Dibble assumes that Counsel

10

This aspect of counsel’s performance was not included in the PLA on direct appeal and is procedurally
defaulted. (Doc. 17-14, p. 14). However, because Respondent addressed the issue on the merits, the Court
will do so as well. (Doc. 16, p. 38).

19

20a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 20 of 29 Page ID #1154

entered into the stipulation in exchange for the State’s agreement not to use the pending Steinhauer
murder charge against him. Thus, he argues that Counsel gave up valuable cross-examination
material in exchange for nothing because the State could not have used the pending charge or other
bad acts evidence against him in any event. 11
Dibble’s assumption is belied by the record. The deaths of Nelson Steinhauer and Barker
occurred about an hour apart and Dibble, Mathis, and Arnsperger were alleged to have been
involved in both. (Doc. 17-2, p. 6). Charges were pending against Dibble in the death of
Steinhauer at the time of trial. At the beginning of the trial, outside the presence of the jury,
defense counsel informed the trial court about an agreement between the State and the defense
regarding the Steinhauer case:
Intertwined through it, all of the police reports throughout the entire investigation,
throughout the statements of virtually every key witness, there is mention of both
of those incidents because it is as a result of the investigation of Nelson Steinhauer
that they kind of back into the allegations that are now before the Court on the death
of Mr. Barker.
So the statements of Preston Arnsperger, Christopher Mathis, Allen Arnsperger,
Jennifer Younts, and virtually every one of the police officers, the potential for
them to step into something is great and we have agreed. . . . that the witnesses who
will be examined on direct examination will not be asked about that, and they will
be instructed not to mention the death of Mr. Steinhauer. We obviously know that
our cross examination is potentially fraught with danger, [and] we will steer as far
clear of any mention of that so as not to open the door.
(Doc. 17-2, p. 5). Counsel then explained that the defense intended to cross-examine Mathis and
Arnsperger on the terms of their plea agreements without referring to the Steinhauer case and that
he did not want the witnesses to volunteer that they were “not going to be prosecuted for this other
case.” (Doc. 17-2, p. 5).
This Court must first examine “the objective reasonableness of counsel’s performance.”

11

Dibble subsequently pled guilty to home invasion in the Steinhauer case and was sentenced to 40 years
imprisonment, to be served consecutively to his sentence for the Barker murder. (See Doc. 14, p. 5, n.2).

20

21a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 21 of 29 Page ID #1155

Harrington, 562 U.S. at 110. In that vein, it is clear that Counsel’s objective in entering into the
stipulation was to avoid any indirect or accidental reference to the Steinhauer case from any
witness. “Strategic choices made after thorough investigation of law and facts relevant to plausible
options are virtually unchallengeable.” Strickland, 466 U.S. at 690. And, “deciding what
questions to ask a prosecution witness on cross-examination is a matter of strategy.” See United
States v. Jackson, 546 F.3d 801, 814 (7th Cir. 2008).
The appellate court determined that “many of the claimed mistakes by counsel were
strategic decisions over which counsel has ultimate authority.” (Doc. 17-1, p. 9). Defense counsel
were vigilant in guarding against any mention of another case from any witness, and the appellate
court could reasonably have concluded that counsel made a strategic decision to forego questioning
Mathis and Arnsperger about the state’s agreement not to charge them in the Steinhauer murder as
part of that overall effort.
The appellate court’s conclusion that the failure to cross-examine Mathis and Arnsperger
about the Steinhauer case did not meet the prejudice prong of the Strickland test was also
reasonable given defense counsel’s vigorous cross-examination regarding the other aspects of the
witnesses’ plea agreements. (Doc. 17-1, p.2). The jury was certainly made aware that Mathis and
Arnsperger had received substantial benefit from their plea agreements, which was the point after
all.
Claim 7 – Ineffective Assistance – Failure to Interview Arnsperger and Mathis
Dibble argues that his lawyers were ineffective by failing to interview Mathis and
Arnsperger before trial and merely assuming that they would testify in accordance with the
statements they made to the police.

This claim is procedurally defaulted and will not be

considered. (Doc. 28, p. 22).

21

22a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 22 of 29 Page ID #1156

Claim 8 – Ineffective Assistance – Impeachment of Arnsperger
Dibble faults defense counsel for the manner in which he cross-examined Arnsperger about
his prior inconsistent statements. Arnsperger testified on direct examination that he was in
Barker’s bedroom when he heard a shotgun blast in a different part of the house. (Doc. 17-6, p.
5). Counsel then conducted a lengthy cross-examination, questioning Arnsperger about several
alleged inconsistencies between his testimony and his prior statements to the police. (Doc. 17-6,
pp. 6-16). On re-cross, Counsel emphasized that before Arnsperger talked to the police, he had
plenty of time to get together with Mathis, whom he regarded as a “brother,” and agree upon a
story blaming Dibble. (Doc. 17-7, pp. 1-2).
Quoting from the trial transcript, Dibble focuses on one alleged inconsistency:
Q. [DEFENSE COUNSEL:] Do you remember telling the police that you actually
saw Terry Dibble shoot Billy Barker?
A. [ARNSPERGER:] I never even said that.
***
Q. Preston stated that Dibble put the shotgun up to Barker . . . then shot Barker one
time and Barker fell to the floor. You never did state . . .[that]?
A. . . . I did not.
(Tr. 265-66)
***
Q. You were, as I understand it now, in the quote, bedroom . . . [when the shot was
fired]; is that correct?
A. Yep.
Q. Then how do you suppose the police officers wrote down Preston stated that
once they were inside the house they were in a big room that appeared to be a living
room?
A. No.
Q. Because there was a big TV in the room. Can’t explain that one either, Can you?
A. No, I can’t.
(Tr. 275).
(Doc. 14, pp. 37-38) (ellipses and brackets in Amended Petition). Dibble asserts that this exchange
was ineffective assistance because:
Defense counsel failed to “direct[ ] the attention of the witness to the time, place,
to whom made, other circumstances of the inconsistent statement and the substance
22

23a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 23 of 29 Page ID #1157

of it and ask the witness if he said it.” [citation omitted]. Instead, counsel engaged
in an argumentative exchange with the witness. Although trial counsel claimed to
be reading from police reports, he never identified to whom the statements were
being made. Also, counsel never called any police officers to testify as to what
Arnsperger said.
(Doc. 14, p. 38-39).
As an initial matter, Respondent argues that this point must be denied because nothing in
the record before the appellate court established that Arnsperger actually made the statements that
Counsel questioned him about. Respondent points out that the trial transcript suggests that
Arnsperger gave a videotaped statement to the police and that the police also prepared a written
summary of his statement. Dibble does not specify whether the statements in issue were contained
in the videotaped statement, the summary, or both. Respondent also notes that Arnsperger’s
statements and the police summary were not in the record on direct appeal and argues that, since
the record before the court did not establish that defense counsel could have perfected his
impeachment with the prior inconsistent statement, the court reasonably denied the point. (Doc.
16, p.43).
Dibble requests a hearing under 28 U.S.C. § 2254(e)(2) because he was unable to develop
this claim on direct appeal, “despite diligent effort.” (Doc. 28, p. 23). 12 Respondent argues that
federal habeas review under § 2254(d) “is limited to the record that was before the state court that
adjudicated the claim on the merits.” Cullen v. Pinholster, 563 U.S. 170, 181 (2011). Only after
the habeas court determines that a petitioner has “overcome the limitation of § 2254(d)(1) on the
record that was before th[e] state court” may the federal court consider whether an evidentiary
hearing is warranted. Id. at 185. Respondent also argues that Dibble is not entitled to a hearing
because he did not diligently attempt to develop a factual record in state court. (Doc. 32).

12

Because Dibble first raised his request for a hearing in his Reply, this Court granted Respondent leave to
file a Sur-reply.

23

24a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 24 of 29 Page ID #1158

Dibble maintains that § 2254(d) does not apply at all to the performance prong of the
Strickland test with respect to this claim because the state court did not decide that prong. He also
argues that he diligently attempted to develop a factual record in state court. (Doc. 35). As this
Court has already concluded, the Harrington presumption of adjudication on the merits applies to
the performance prong of this claim and habeas review “is limited to the record that was before
the state court that adjudicated the claim on the merits.” Cullen, 563 U.S. at 181. Section
2254(e)(2) permits a hearing where the federal habeas court finds that the state court’s decision
was based on an unreasonable determination of the facts under § 2254(d)(2). Lee v. Kink, 922
F.3d 772, 775 (7th Cir. 2019). That is not the case here.
Additionally, Dibble did not employ the procedures available in Illinois to expand the
record on direct appeal for consideration of ineffective assistance claims. See Crutchfield v.
Dennison, 910 F.3d 968, 977 (7th Cir. 2018) (describing those procedures).

Although he

reasserted his ineffective assistance claims in the postconviction review proceedings, he conceded
that they were barred by res judicata at that stage. (Doc. 17-20, p. 9). Still, he could have
developed the record by filing the report with his postconviction petition but did not. A petitioner
is entitled to a hearing under § 2254(e) only where he has diligently attempted to develop a factual
record in support of the claim in state court. See Williams v. Taylor, 529 U.S. 420, 429-30 (2000).
Because Dibble did nothing to develop a factual record in state court, the Court declines his request
for an evidentiary hearing.
Turning to the merits of the claim, again, where the federal issue was presented to the state
court, an unexplained decision denying relief is presumed to have been adjudicated on the merits
in the absence of an indication to the contrary. Harrington, 562 U.S. at 99. Because that
presumption applies, this Court reviews this claim on both the performance and prejudice prongs

24

25a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 25 of 29 Page ID #1159

under § 2254(d).
Dibble contends that Counsel’s cross-examination of Arnsperger fell below an objective
standard of reasonableness because he did not follow the proper procedure of calling the
circumstances of the inconsistent statement to the witness’ attention and asking him if he made it.
He cites People v. Henry, 265 N.E.2d 876 (Ill. 1970), for the proposition that the procedure he
describes is required. The Illinois Supreme Court’s ultimate conclusion in that case undermines
his argument, however. Specifically, after noting the typical cross examination method Dibble
references, the court held that the foundation for admission of a prior inconsistent statement is laid
without following the formulaic script where the questions asked on cross-examination
“substantially satisfy the reasons for the rule requiring a foundation” – “to protect the witness
against unfair surprise and to permit his explanation of the prior statement.” Id.
The totality of the cross-examination versus the brief and edited passage cited by Dibble
reveals that Counsel established that Arnsperger initially denied knowing anything about Barker’s
murder, but subsequently changed his story and gave a videotaped statement to police. Arnsperger
explained the allegedly inconsistent statements attributed to him in the report by saying that the
police “must have made a mistake.” (Doc. 17-6, p. 7). Then, evidently reading from the report,
Counsel asked, “Preston stated that Dibble put the shotgun up to Barker and told him you freeze
mother fucker, get back, Preston stated that Dibble then shot Barker one time and Barker fell to
the floor. You never did state what I just read you stated, is that your testimony?” When
Arnsperger denied making the statement, Counsel asked him, in effect, why the police would have
written that he did. He replied, “Probably did a half ass job, to tell you the truth.” (Doc. 17-6, pp.
8-9). The questioning regarding Arnsperger’s alleged statement that he was in the living room
instead of the bedroom was similar. (Do. 17-6, p. 11). Presented with this record, the appellate

25

26a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 26 of 29 Page ID #1160

court could reasonably have concluded that the cross examination as a whole was not deficient.
Dibble also complains that defense counsel failed to call a police officer to testify that
Arnsperger said he was in the living room and saw Dibble shoot Barker. But because he did not
establish that an officer would have testified that Arnsperger made these statements, he has not
shown that Counsel’s performance was deficient. 13
Dibble further argues he was prejudiced by counsel’s cross-examination “because if the
jury had heard evidence that Arnsperger was in the same room when Barker was shot, it would
have concluded that the rest of Arnsperger’s story was equally unreliable.” (Doc. 14, p. 39). The
jury did hear evidence that Arnsperger at one time told the police that he was in the living room
and saw Dibble shoot Barker – Counsel read those statements from the police report. And, Counsel
argued forcefully in closing that the jury should not believe Arnsperger and Mathis because they
changed their stories over and over. (Doc. 17-10, pp. 11-15). As such, Dibble’s claim fails on
both prongs of the Strickland standard.
Claim 9 – Ineffective Assistance – Failure to Request Jury Instructions
Dibble argues that trial counsel failed to tender jury instructions on accomplice-witness
testimony and the substantive admissibility of Mathis’ prior inconsistent statement that it was he
and not Dibble who broke the window at Barker’s house, and were therefore ineffective. He
concedes that his claim regarding the admissibility of Mathis’ prior inconsistent statement is
procedurally defaulted. With respect to the jury instructions, Dibble contends that Counsel should
have tendered I.P.I. Crim. 3d No. 3.17, which would have informed the jury that “When a witness
says he was involved in the commission of a crime with the defendant, the testimony of that witness

13

Because the appellate court could have reasonably concluded that counsel’s performance was not
deficient, this Court need not address the Strickland prejudice prong, but will do so for the sake of
completeness.

26

27a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 27 of 29 Page ID #1161

is subject to suspicion and should be considered by you with caution. It should be carefully
examined in light of the other evidence in the case.”
Dibble would likely have been entitled to have the instruction given had it been tendered.
See Committee Note, Ill. Pattern Jury Instr.-Criminal 3.17. However, the appellate court’s
conclusion that the outcome was not likely to have been different had the instruction been given
was a reasonable application of Strickland. The purpose of the accomplice witness instruction “is
to warn the jury that the witness might have a strong motivation to provide false testimony for the
State in exchange for immunity or some other lenient treatment.” People v. Hunt, 67 N.E.3d 542,
552 (Ill. App. 2016). Dibble’s jury was well aware that Mathis and Arnsperger were testifying
pursuant to favorable plea deals and that they had both made prior inconsistent statements
regarding Barker’s murder. Considering the evidence and the collective instructions, there is very
little chance that the giving of the accomplice witness instruction would have changed the outcome
of the trial, and the appellate court’s conclusion was not unreasonable.
Claims 10 through 14 – Procedural Default
Respondent argues that the remaining claims, 10 through 14, are procedurally defaulted.
Dibble maintains that claims 10 and 11 were fairly presented to the state court because he tried to
raise them in a pro se supplemental brief on appeal of the denial of his postconviction petition.
(Doc. 28, p. 24). However, invoking its rule against hybrid representation, the appellate court
ordered the pro se supplemental brief stricken. (Doc. 17-25, pp. 1-2). The Illinois rule against
hybrid representation is an independent and adequate state ground, and as such, claims 10 and 11
cannot be considered on habeas review. Clemons v. Pfister, 845 F.3d 816, 820 (7th Cir. 2017).
Similarly, because Dibble tacitly concedes that claims 12 and 13 are procedurally defaulted, again,
those claims are not subject to this Court’s review. (Doc. 28, p. 24).

27

28a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 28 of 29 Page ID #1162

Finally, as to Claim 14 – that appellate counsel was ineffective for failing to raise claims
of due process and ineffective assistance of trial counsel on direct appeal – Dibble again concedes
the default but argues that “he has overcome the default through manifest injustice.” (Doc. 28, p.
24). This is presumably a reference to the fundamental miscarriage of justice standard which “…
applies only in the rare case where the petitioner can prove that he is actually innocent of the crime
of which he has been convicted.” McDowell v. Lemke, 737 F.3d 476, 483 (7th Cir. 2013). Dibble
has not done so and this claim is likewise defaulted.
CONCLUSION
For the foregoing reasons, Petitioner Terry Dibble’s Amended Petition for Habeas Relief
Pursuant to 28 U.S.C. § 2254 (Doc. 14) is DENIED in its entirety. This action is DISMISSED
with prejudice and the Clerk of Court is DIRECTED to enter judgment accordingly and to close
the case.
CERTIFICATE OF APPEALABILITY
Pursuant to Rule 11 of the Rules Governing Section 2254 Cases, this Court must “issue or
deny a certificate of appealability when it enters a final order adverse to the applicant.” A
certificate should be issued only where the petitioner “has made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). A petitioner must show that “reasonable jurists”
would find this Court’s “assessment of the constitutional claims debatable or wrong.” See Slack
v. McDaniel, 529 U.S. 473, 484 (2000); Buck v. Davis, 137 S. Ct. 759, 773 (2017). Where a
petition is dismissed on procedural grounds without reaching the underlying constitutional issue,
the petitioner must show both that reasonable jurists would “find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.” Slack, 529 U.S. at 484.

28

29a

Case 3:18-cv-00609-SMY Document 39 Filed 07/06/20 Page 29 of 29 Page ID #1163

No reasonable jurist would find it debatable whether this Court’s rulings on procedural
default or on the substantive issues were correct. Accordingly, the Court DENIES a certificate of
appealability. Petitioner may reapply to the United States Court of Appeals, Seventh Circuit for
said certificate. See FED. R. APP. P. 22(b); 28 U.S.C. § 2253(c)(1).
IT IS SO ORDERED.
DATED: July 6, 2020
s/ Staci M. Yandle
STACI M. YANDLE
United States District Judge

29

30a

Case 3:18-cv-00609-SMY Document 40 Filed 07/06/20 Page 1 of 1 Page ID #1164

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
TERRY DIBBLE, # B81130,
Petitioner,
vs.
DEANNA BROOKHART,
Respondent.

)
)
)
)
)
)
)
)
)

Case No. 18-cv-609-SMY

JUDGMENT IN A CIVIL CASE
This action came before the Court for consideration of the Amended Habeas Corpus
Petition (Doc. 14), filed pursuant to 28 U.S.C. § 2254. The Court has rendered the following
decision:
IT IS ORDERED AND ADJUDGED that pursuant to the Memorandum and Order
entered by this Court, the Petition is DENIED. This action is DISMISSED with prejudice.
Judgment is entered in favor of Respondent and against Petitioner.
DATED: July 6, 2020
MARGARET M. ROBERTIE
CLERK of COURT
By: s/ Tanya Kelley
Deputy Clerk

APPROVED: s/ Staci M. Yandle
Staci M. Yandle
United States District Judge

31a

